                                                                                                                                 NATIONAL SCIENCE FOUNDATION
                                                                                                                                    ARLINGTON, VA 22230




                                                Office of
                                            Inspector General



                                        MEMORANDUM

                                                                     DATE:           Julv 11. 1 9 9 4
                                                                                          .......
                                                                     FROM :                                       --                                                                         ~ ~ e c i aAsent
                                                                                                                                                                                          -_--,          l
                                                                                     -
                                                                       VIA :              -. -. ,--~~ecial gent - in-Charge
                                                                                                                         -
                                                                                     I~vestigationssection -
                                                SUBJECT:                             Possible Duplicate Funding to

                                                                        TO:          Case No. I 9 3 1 1 0 0 4 5

                     -
                                                                                                                                                                                                                                                                                                                                .            .

                              The Audit Section of the National Science Foundation (NSF) Office of               I
                              Inspector General (OIG) conducted a Financial and Compliance
                              Examination of                                                   Among the
                              questioned costs f oun& in-the -~xa.dnationwere:..salaw     costs that .i
                                         erred..froma National Institute-for. :._.
                              had .._trans£                                                                                                                                                                                                                                                                   .   . . . .

                ..
                             . .
                           . ..                           to NSF award AW-L
                                            . contract,*'.'                          because of cost                                                                        .                                                                         .                                       ......

                              overruns. The ~ u d i tSection..  requested:'thatthe Investigations:Section"i                 '                            ...                                                                                                                                                                                     '




                              conduct a review oq.....
                                                  . . . .
                                                           -because'.many of their awards seemed s,imi.lar
                                                                                                         ,:i:- . - .::.         ...                                                                                                                                            .                                                    .   .        .

                              in nature.                     ..           .                               .                                                                           ..                                                .         .         .        .                                                      .



                                        The following proposals1 were reviewed:.
                                                                                                                                                                                                                                                                                                                                        'I
                                                                                            Agency                                                        Date                                                                 Amount                                                Title
                                                                                                                                                                                                                                                                                          .

                                                                                                  NASA:                                                                                                                    $                                                  :          .~     .




                   --.


                                        -
                                                                                                                                  .         .
      ,
              .. .....                                                                                                                      . . ,                                                                                           .
                                                                                                                                                                                                                                                          . .. . .
                                                                                                                                                                                                                                                              .      .
                     . ,        .                                        .   .   .    i                                                                                 -                     -                                              .~                  .
                   . . . .
  .. :
  ....
      .          . -. - .... .
                 . ..;i..
                      . . . . '.,
                                                ~


                                                . . . . . .
                                                                ATM-                              NSF. 3                                                                                                   9 $ ,,., . ~. . .5. . ~. ,.----~
                                                                                                                                                                                                                   ,                    ; ~ , ; $ ~ ~ ~ ~ - - ~ - ~ - ~ ~                     .-    "'   .-
                  ;.<$.:, ii:.>
                              :' :.,;                                                             .       .                           ..         "                             '...            . . . . . .. .. ... ... ... .. ..
                                                                                                                                                                                          . . :"..
                                                                                                                                                                                                                           ,
                                                                                                                                                                                                                                                                 .              .
                                    -                                                                                   .. . .
                                                                                                                                                                                                                                                                               -
          .                                                                                                                                                                                                                                                                   ..I'


                                                                                                                                                                                                                                                                 _
                                                ;
                                                                                                                                                . . . . .
                                                                                                                                                                                                                                   ,
                                                                 '

              . . " .,.I.<..                                                                          .       .                                                                                                                     ..- .
                                                                                                                                                                                                                                        - '-
                                                                                                                                                                                                                                           I
                                                            ..   . .                                                                                                                                                               L-
          .                .        .
                                        . , ...
                                                .
                                                                                                                                                                                                                               .
      '


                     *.                                                                                               ...                                 .            . .i,                  .
                                                        i
                                                        ,                                     .   .               ,.~ ,                .         ,.
                                                                                                                                                                                      :

                                                <                                                                                                                                                                          ;
                                                                                                                                                                                   ,                                                >
                                                                                                                                                                                                                                    .             .
                                                                                                                                                                                                               I
                                                                                                                  .     .    .        .      .       .                                                 .
                                                                                                                      . . . .... ..
                     z!:i.;.:       .,
                                     ;                                                                                                                                        :...                                                                                       ........         :
< .       ;.. ;;:..>:,.             .                                                                                     ....
                                                                                                                                                                       : 1 i "
                                                                                                                                           . . . . . .. .'. ..:j . _ . .
                                                                                                                                                                                                           .
                                                                                                                                                                                                                                   ,.                       . .. .. .. .. .. . .
                     ..:                                                                                                ...,.                                                                                                                                . . . .
                   ...
                   .. .                                                                                               ........
                                                                                                                        ...                                                               .        .       .           .
               . . .-  .                            .
                                                                                                                            .,              .                  . < .



                 ..                      'NSF jackets were returned to 'the appropriate
                                    of all other reviewed proposals are-irefieEile.
                           . ..             .       .       .

                                                                                                                        ., , .        .                                     .,:t          ..
                                                                                                                                                                                              .:                                                                 .:.,     .          .

                                                                                                                                                                             .,..$ '
                                                                                                                                                                                      ,
                                                                                                                                                                                                                                                             - ..
                                                                                                                                                                                                                                                                               L:


                                                                                                                                                                                                                                                                               .:
                                                                                                                                                                                                                                                                                ,
                                                                                                                                                                                              '
                                                       ARPA                                        0                                             $ 50,000



                                                       NSF                                                                                       $ 50,000



                                                       NASA                                                                1                 Decline


         ATM-                              ,           NSF                                                                                                 8


         ISI-                                          NSF                                                                                   $220,000



                                                       NASA


         111-!                                         NSF                                                                                   $250,000

                                  .        .
                                               .       . .

         111-1     ,.                              NSF                                                                                       Withdraw
                                      i..




                                                   NSF                                                                                    Decline


                                                                                     ..        .        .                                                                                                I
                                                                                                                                                                                                         ,     ..,;~:;,:;      . . .. .
                                                                                                                                                                                                                                                   ,




                                                   NASA                                            3                                                                                                         ."c,....': ., .. . ..,. ,
                                                                                                                                                                                                               )I
                                                                                                                                                                                                         ,               .  ,
                                                                                                               -
                                                                                                                                                                                                         I
                                                                                                         :.,

                                                                                                                                                                                                                                     .&.%.
                                                                                                                                                                                                                                     ', Y,'
                                                                                                   .               .
                                                                                                                                                                .       .                .   .
                                                                                                                                                                                                             l'.:T.
                                                                                                                                                                                                                I-,:
                                                                                                                                                                                                                      >:,
                                                                                                                                                                                                                  .>,... ...,*
                                                                                                                                                                                                                           ..:<.:.:.          I:



                 . .    . .
                                                                                                                                         $,
                         .             .                                                                                                                                                                                  I.'        '.   :
         111-'.-.                                  NSF          ,




                                                                                                                                                                                                 ,
                                                                                                                                                                                                     .   .            ,
                                                                                                                                                                                                                          .      _  .:..
                                                                                                                                                                                                                                ::..:;.,.
                                                                         .                ,.
                                                                                                   .-f.
                                                                                                       ...             .
    Our review found t h a t t h e pkoposals,, while
    duplicative. For the most "part, they are c
    which build.upon previou* r,esearch. Only t
    be considered somewha_t..
    .                         , eauiGalenti,. They are._                                                                                          .
                                           . .
                    .         ., ,.x--.--.         '.
                                                   . .- . ..   ..... .   .-                            C.7;.;~j--:--.-                                         .-   .
                a----- ~ dehe ARPA:y&ri.Es&:@
                                                                                                                                                  I
                                                                                                                                                       '

                                                      . * ...;
                                                    :gb$3
                                                                                                                                                                        '




.   in
     -                         -~  :      -.. .., .     --
                                                                                                                   ,<*          %<       ,
                                                   .                         >,:,.                                     ,.,.::
                                                                                                                       awak;ded in
                                                                                                                                     ,

                                                                                                                                                                            d;.; y ~ h
    1ists eh&-:hmn..co.9cract, und&$$ending     Support and
    summary of t h e 'NASA contiad!t:. .. . ARPA :was a                                                                     f

                                                                                               . .. .              .                         .    .
                                                                                                                           ..        ..
                                                                                                        ,.         .
                                                                                                                                                  2'


                                                                                                                           :             r l
                                                                                                                                           .
and its contents, we must assume that the proposaTs were determined to
be.nonduplicative.
AS we found no indication of duplicate funding and the inappropriate
transfer of funds is being handled by the Audit Section, further         1
investigation is not warranted at this time.
This case is closed.
